WES
I

C@OCKLE

Legal Briefs

2311 Douglas Street
Omaha, Nebraska 68102-1214

Est. 1923
1-800-225-6964
(402) 342-2831
Fax: (402) 342-4850 No. 21-351
COURTNEY WILD,
Petitioner.
v.

UNITED STATES DISTRICT COURT FOR
THE SOUTHERN DISTRICT OF FLORIDA,

Respondent.

AFFIDAVIT OF SERVICE

E-Mail Address:
contact@cocklelegalbriefs.com

Web Site
www.cocklelegalbriefs.com

I, Andrew Cockle, of lawful age, being duly sworn, upon my oath state that I did, on the Ist day of October, 2021, send out
from Omaha, NE 2 package(s) containing 3 copies of the BRIEF OF AMICI CURIAE THE NATIONAL CRIME VICTIM
LAW INSTITUTE, ET AL. IN SUPPORT OF PETITIONER in the above entitled case. All parties required to be served have

been served by Priority Mail. Packages were plainly addressed to the following:
SEE ATTACHED

To be filed for:

MEG GARVIN
Counsel of Record

NATIONAL CRIME VICTIM
LAW INSTITUTE

1130 SW Morrison Street,
Suite 200

Portland, OR 97205

(503) 768-6953

garvin@lclark.edu

Counsel for Amici Curiae

Subscribed and sworn to before me this 1st day of October, 2021.
Tam duly authorized under the laws of the State of Nebraska to administer oaths.

GENERAL NOTARY-State of Nebraska
RENEE J. GOSS
My Comm. Exp. September 5, 2023

 

Leoo’ Onduar-h, Chk

 

Notary Public Affiant

41477
Attorneys for Petitioner
Paul G. Cassell
Counsel of Record
Utah Appellate Project
S.J. Quinney College of Law at the University of Utah
383 S. University St.
Salt Lake City, UT 84112
cassellp@law.utah.edu
801-585-5202

Attorneys for Respondent

Brian H. Fletcher

Counsel of Record

Acting Solicitor General

United States Department of Justice
950 Pennsylvania Avenue, NW
Washington, DC 20530-0001
SupremeCtBriefs@USDOJ.gov
202-514-2217
